App. No. 18A-___

In the
Supreme Court of the United States

Jorge L. Medina
Petitioner,
v.
William P. Barr,
Respondent.

ON APPLICATION FOR EXTENSION OF TIME TO FILE A PETITION FOR A
WRIT OF CERTIORARI TO THE UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT

PETITIONER’S APPLICATION TO EXTEND TIME TO
FILE A PETITION FOR A WRIT OF CERTIORARI

Alan Gura*
Gura PLLC
916 Prince Street, Suite 107
Alexandria, Virginia 22314
703.835.9085
alan@gurapllc.com
May 30, 2019

*Counsel of Record

App. No. 18A-___

In the
Supreme Court of the United States

Jorge L. Medina,
Petitioner,
v.
William P. Barr,
Respondent.

PETITIONER’S APPLICATION TO EXTEND TIME TO
FILE A PETITION FOR A WRIT OF CERTIORARI

To the Honorable John G. Roberts, Jr., Chief Justice of the United States and Circuit
Justice for the United States Court of Appeals for the District of Columbia Circuit:
Petitioner Jorge L. Medina respectfully requests that the time to file a Petition
for Writ of Certiorari in this matter be extended for sixty days to and including August
30, 2019. The Court of Appeals issued its opinion on January 18, 2019. See App. A,
infra. On April 2, 2019, the Court of Appeals denied Petitioner’s timely petition for
rehearing en banc. See App. B, infra. Absent an extension of time, the petition would
therefore be due on July 1, 2019. Petitioner is filing this application at least ten days
before that date. See S. Ct. R. 13.5. This Court would have jurisdiction over the
judgment per 28 U.S.C. § 1254(1).

1

Background
Jorge Medina’s forthcoming petition for a writ of certiorari will ask this Court
to resolve recurring questions of significant public importance on which the courts of
appeals are intractably split: whether, and if so on what basis, individuals may seek
as-applied Second Amendment relief from felon dispossession laws.
Approximately thirty years ago, Jorge Medina misstated his income on
mortgage loan applications, resulting in a conviction on one count of making a false
statement to a lending institution in violation of 18 U.S.C. § 1014.
The bank suffered no loss owing to this statement, as Medina paid back the
loan in full and ahead of schedule. It would resume doing business with him, later
extending Medina a $1 million home equity line of credit. The court sentenced Medina
to sixty days of home detention, a fine and special assessment, and three years of
probation, which was terminated early after just one year. Nonetheless, on account of
this conviction, 18 U.S.C. § 922(g)(1) permanently bars Medina’s possession of
firearms.
Claiming that he has long since become a “law-abiding, responsible citizen”
entitled to exercise Second Amendment rights, District of Columbia v. Heller, 554 U.S.
570, 635 (2008), Medina brought suit in the United States District Court for the
District of Columbia on August 24, 2016, challenging Section 922(g)(1)’s application
against him on Second Amendment grounds. On September 6, 2017, the District
Court granted Respondent’s predecessor’s motion to dismiss. Medina v. Sessions, 279
F. Supp. 3d 281 (D.D.C. 2017). As noted supra, the D.C. Circuit affirmed that decision
2

on January 18, 2019, Medina v. Whitaker, 913 F.3d 152 (D.C. Cir. 2019) (App. A), and
denied Medina’s timely petition for rehearing en banc on April 2, 2019 (App. B).
Reasons for Granting an Extension of Time
1. The circuits are deeply divided as to what this Court meant in describing
felon disarmament provisions as “presumptively lawful.” Heller, 554 U.S. at 626-27
n.26.
While courts uniformly uphold Section 922(g)(1)’s facial validity, nearly all
circuits also agree or suggest that Heller allows for at least some form of as-applied
Second Amendment challenge to firearm dispossession laws, including Section
922(g)(1). For example, affirming the award of relief from Section 922(g)(1) in two
cases, the en banc Third Circuit noted that “[u]nless flagged as irrebutable,
presumptions are rebuttable.” Binderup v. Att’y Gen., 836 F.3d 336, 350 (3d Cir. 2016)
(en banc); see also United States v. Torres-Rosario, 658 F.3d 110, 113 (1st Cir. 2011);
United States v. Williams, 616 F.3d 685, 692 (7th Cir. 2010); United States v.
Woolsey, 759 F.3d 905, 909 (8th Cir. 2014); Fortson v. L.A. City Attorney’s Office, 852
F.3d 1190, 1194 (9th Cir. 2017).
Only the Tenth Circuit has categorically foreclosed all as-applied challenges to
Section 922(g)(1). “We have already rejected the notion that Heller mandates an
individualized inquiry concerning felons pursuant to § 922(g)(1).” In re United States,
578 F.3d 1195, 1200 (10th Cir. 2009) (citing United States v. McCane, 573 F.3d 1037
(10th Cir. 2009)) (unpublished order but attached to published dissent).

3

Even when relief is available, courts are fractured as to the basis for awarding
it. The en banc Third Circuit, for example, divided as to whether people convicted of
crimes may be disarmed for lacking virtue, Binderup, 836 F.3d at 348 (Ambro, J.), or
whether disarmament is appropriate only where criminal records indicate
dangerousness, id. at 357-58 (Hardiman, J.). Courts adopting the former view can take
a very parsimonious approach to awarding relief. For example, the Fourth Circuit
“recognized the possibility that an as-applied challenge to a felon disarmament law
could succeed in rebutting the presumption [of lawfulness],” Hamilton v. Pallozzi, 848
F.3d 614, 622-23 (4th Cir. 2017) (citation omitted), but now limits relief to instances
where “the felony conviction is pardoned or the law defining the crime of conviction is
found unconstitutional or otherwise unlawful,” id. at 626, or potentially, to cases
where misdemeanants are swept within felon disarmament laws, id. n.11.
The D.C. Circuit had previously offered that absent the prospect of
administrative relief, “the federal firearms ban will remain vulnerable to a properly
raised as-applied constitutional challenge brought by an individual who, despite a
prior conviction, has become a ‘law-abiding, responsible citizen[]’ entitled to ‘use arms
in defense of hearth and home.’” Schrader v. Holder, 704 F.3d 980, 992 (D.C. Cir.
2013) (quoting Heller, 554 U.S. at 635). But here, it denied Medina relief because he
was convicted of a crime defined as a felony, which the court took to signal lack of
virtue. App. A at 14.1

1

The court added that Medina was subsequently convicted of “misdemeanor
fraud.” Id. Medina submits that the record does not support that characterization. In
4

Shortly after the decision below, a divided Seventh Circuit panel turned aside
an as-applied challenge to Section 922(g)(1) by a felon convicted of Medicare fraud.
Kanter v. Barr, 919 F.3d 437 (7th Cir. 2019). Unlike Medina’s offense, Kanter’s
offense caused substantial financial damage, earning him a meaningful sentence. Id.
at 450. Nonetheless, Judge Barrett dissented at significant length on originalist
grounds, and rejected the D.C. Circuit’s historical treatment in this case. Like Judge
Hardiman’s Binderup concurrence for himself and four colleagues, Judge Barrett
found that dangerousness, not virtue, was the historical basis for disarmament. “In
1791—and for well more than a century afterward—legislatures disqualified
categories of people from the right to bear arms only when they judged that doing so
was necessary to protect the public safety.” Kanter, 919 F.3d at 451 (Barrett, J.,
dissenting).
Here, the D.C. Circuit claimed to find support for its “virtuousness” theory of
felon disarmament by asserting that Framing Era felons were categorically
dispossessed and executed. “[I]t is difficult to conclude that the public, in 1791, would
have understood someone facing death and estate forfeiture to be within the scope of

the early 1990s, Medina obtained Wyoming resident hunting licenses for use at his
Wyoming ranch (with non-prohibited arms), unaware that the law had redefined the
qualifications for a resident hunting license to require domicile and not merely
residence. JA 11-12, ¶¶ 26-31. Upon learning that he did not qualify for resident
hunting licenses, Medina ceased hunting in Wyoming on such licenses and obtained
nonresident licenses. JA 12, ¶¶ 32-33. To avoid the cost of contesting the charges,
which would have far exceeded the potential fines, Medina pleaded guilty to three class
five misdemeanor violations of Wyo. Stat. Ann. § 23-3-403 (1989), barring false
statements in procuring hunting licenses. In any event, this conviction has no impact
on Medina’s ability to possess firearms.
5

those entitled to possess arms.” App. A at 11. But as Judge Barrett’s survey showed,
this supposition is simply erroneous. By the time of the founding, capital punishment
had become relatively rare, and the concept of “civil death” attached instead to life
sentences. Kanter, 919 F.3d at 458-61 (Barrett, J., dissenting). “Those who ratified the
Second Amendment would not have assumed that a free man, previously convicted,
lived in a society without any rights and without the protection of law.” Id. at 461
(Barrett, J., dissenting).
Blackstone’s account of felons’ historical treatment is in accord. By his day,
commoners committing their first offense were “discharged of the capital punishment
of felonies within the benefit of clergy” upon receiving some alternative punishment. 5
St. George Tucker, Blackstone’s Commentaries [Book Four] *373 (1803). Thereafter,
a first-time felon was “restored to all capacities and credits, and the possession of his
lands, as if he had never been convicted.” Id. at *374.
2. An extension of time is needed to adequately complete this petition, in light
of counsel’s other pressing deadlines and obligations.
By July 3, 2019, Petitioner’s counsel must file the opening brief and appendix in
United States v. Hunt-Irving, Third Cir. No. 19-1636, a criminal appeal raising
significant Second and Fourth Amendment issues. Two days later, July 5, 2019, is
counsel’s deadline for filing the reply brief in Drummond v. Twp. of Robinson, Third
Cir. No. 19-1394, a land use dispute involving significant Second Amendment, equal
protection, and substantive due process issues (among others). The Hunt-Irving
deadline has already been extended, as has the deadline in Drummond for the brief to
6

which counsel would be replying, although counsel anticipates that this latter deadline
would be extended as it falls in the middle of a holiday weekend.
Before this spate of July deadlines, Petitioner’s counsel is responsible for
preparing the opposition to the government’s motion to dismiss, due June 10, 2019, in
Atlas Brew Works v. Barr, U.S. Dist. Ct. D.C. No. 19-79, a First Amendment challenge
to the requirement that alcoholic beverage makers obtain a federal Certificate of Label
Approval to publish beverage labels in interstate commerce when such certificates are
unavailable owing to government appropriation lapses. And on June 13, 2019,
Petitioner’s counsel is responsible for filing the opposition to the motion to dismiss in
Dolin v. Baer, U.S. Dist. Ct. N.D. Ill. No. 19-1310, an Article IV, Section 2 challenge to
Illinois’ practice of discriminating against non-resident physicians in its medical
license renewal fees.
Between July 30 and August 6, Petitioner’s counsel will be away on a longscheduled (if short) family vacation. And August 19, 2019, is the deadline for
Petitioner’s counsel to file the petition for certiorari from the en banc D.C. Circuit’s
decision in Libertarian National Committee, Inc. v. FEC, No. 18-5227, 2019 U.S. App.
LEXIS 14964, 2019 WL 2180336, __ F.3d __ (D.C. Cir. May 21, 2019) (en banc). In
that case, on certified constitutional questions pursuant to 52 U.S.C. § 30110, a
fractured D.C. Circuit upheld recent amendments to the Federal Election Campaign
Act that impose content-based restrictions on 90% of what an individual donor might
legally give the national committee of a political party. The court also upheld the
FEC’s practice of extending contribution limits to the deceased, even in cases where
7

testamentary bequests are uncoordinated with political parties. Seven judges joined
the majority opinion in full, with Judge Griffith dissenting as to the FECA
amendments, and Judges Katsas and Henderson dissenting as to the testamentary
bequests.
These are not counsel’s only professional obligations, but they suffice to render
the preparation of the petition for a writ of certiorari in this case unduly challenging
absent the requested extension. The requested extension would not prejudice
Respondent, who prevailed below and is not currently enjoined from enforcing the
challenged provision.
Conclusion
For the foregoing reasons, the time to file a Petition for a Writ of Certiorari in
this matter should be extended by sixty days to and including August 30, 2019.
Dated: May 30, 2019

Respectfully submitted,

/s/ Alan Gura
Alan Gura*
Gura PLLC
916 Prince Street, Suite 107
Alexandria, Virginia 22314
703.835.9085
alan@gurapllc.com
*Counsel of Record

8

Appendix

Appendix A,
Slip Op., Medina v. Whitaker, 913 F.3d 152 (D.C. Cir. 2019). . . . . . . . . . . . . . A-1
Appendix B,
Order Denying Petition for Rehearing En Banc, Medina v. Barr,
No. 17-5248, 2019 U.S. App. LEXIS 9649, 2019 WL 1748571
(D.C. Cir. Apr. 2, 2019). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . B-1

